No._____________

In The
Supreme Court of the United States
GARY LAMONT ROBINSON,

Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE
I, Denise Dulong, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. On this, the 5th day of April, 2021,
Pursuant to (ORDER LIST: 589 U.S.) I filed the foregoing petition with the United
States Supreme Court electronically and deposited one (1) paper copy via UPS
Ground Transportation, and served via electronic mail of the same, to the following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Jennifer May-Parker
Office of the United States Attorney
150 Fayetteville Street, Suite 2100
Raleigh, North Carolina 27601
usance.ecfappeals@usdoj.gov
Counsel for Respondent
Denise Dulong
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Kelly Margolis Dagger
Counsel of Record
Paul K. Sun, Jr.
Ellis & Winters LLP
Post Office Box 33550
Raleigh, North Carolina 27636
(919) 865-7000
Counsel for Petitioner
Signed and subscribed before me on this 5th day of April, 2021.

